UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2339
Robert Dinkins
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:20-cv-00133-AGF)
JUDGMENT

Before LOKEN, SHEPHERD, and GRASZ, Circuit Judges.

The district court's orders of March 30, 2020, June 2, 2020, and June 5, 2020 have been
considered by this court and are summarily affirmed.
July 02, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-2339

Page: 1

Date Filed: 07/02/2020 Entry ID: 4930167

Case: 4:20-cv-00133-AGF Doc. #: 15 Filed: 06/05/20 Page: 1 of 3 PagelD #: 75

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
ROBERT O. DINKINS,
Movant,
v.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

No. 4:20-CV-133 AGF

MEMORANDUM AND ORDER
Before the Court is movant’s post-dismissal motion for investigation and his supplemental
motion seeking compassionate release. Movant’s motions will be denied.
On July 8, 2015, a one-count indictment charged movant with felon in possession of a
firearm in violation of 18 U.S.C. §§ 922(g)(1) and 924(e)(1). United States v. Dinkins, Case No.
4:15-CR-314 ERW (E.D. Mo.).1 Movant waived his right to a jury trial and requested a bench trial.
At trial, the Court found movant guilty and subsequently sentenced him as an Armed Career
Criminal to 180 months of imprisonment. With the assistance of counsel, movant filed a timely
appeal to the Eighth Circuit Court of Appeals. In his appeal, movant argued that the District Court
erred in finding him guilty of being a felon in possession of a firearm because he was legally
justified in possessing the firearm to protect himself and the community from imminent danger.
On May 26,2017, the Eighth Circuit Court of Appeals affirmed the judgment of the District
Court. United States v. Dinkins, 688 F. App’x 408 (8th Cir. 2017).
Movant sought to overturn his conviction on six separate occasions. See Dinkins v. United
States, 4:17-CV-2296 CAS (E.D.Mo.); Dinkins v. United States, 4:19-CV-1688 CAS (E.D.Mo);

'The Honorable Carol E. Jackson tried movant’s criminal case. She has since retired. On February 7, 2020, movant’s
criminal case was transferred to the undersigned judge.

Case: 4:20-cv-00133-AGF Doc.#: 15 Filed: 06/05/20 Page: 2 of 3 PagelD #: 76

Dinkins v. United States, 4:19-CV-1839 CAS (E.D. Mo.); Dinkins v. United States, 4:19-CV-1920
CAS (E.D.Mo); Dinkins v. United States, 4:19-CV-2903 ERW (E.D.Mo); Dinkins v. United States,
4:20-CV-133 AGF (E.D.Mo). His requests have been denied each time.
On June 2, 2020, the Court denied movant’s first motion for compassionate release due to
the Covid-19 pandemic. Movant filed the instant motions for “investigation” and his supplemental
motion for compassionate release on June 4,2020. In the instant motions before the Court, movant
asserts that defendant has continued to hold him unlawfully after he has submitted exhibits
showing that he is actually innocent of the crimes for which he is being held. Movant seeks an
investigation into the unlawful confinement. Movant additionally states that he would like a tenday extension of time to supplement his motion for compassionate release.
Discussion
Movant’s motion for investigation is nothing more than a motion for reconsideration of
this Court’s prior rulings on his six motions to vacate. After reviewing the grounds raised by
movant, the Court will decline to alter or amend the prior judgments of this Court. Movant’s
motion fails to point to any manifest errors of law or fact, or any newly discovered evidence.
Instead, the motion can be said to merely revisit old arguments. Petitioner is therefore not entitled
to reconsideration of the dismissal of his prior motions to vacate, and his motion to investigate will
be denied.
Movant’s motion for extension of time to file an amended motion for compassionate
release, or a supplemental motion for compassionate release will also be denied. The Court has
addressed movant’s arguments relating to his motion for compassionate release in its June 2, 2020
Memorandum and Order. Movant does not qualify for release under the First Step Act, and as he

2

Case: 4:20-cv-00133-AGF Doc.#: 15 Filed: 06/05/20 Page: 3 of 3 PagelD #: 77

was told in the prior Order, he is required to first seek compassionate release with the Bureau of
Prisons.
Accordingly,
IT IS HEREBY ORDERED that movant’s motion for investigation [Doc. #14] is
DENIED.
IT IS FURTHER ORDERED that movant’s motion to supplement his motion for
compassionate release, or alternatively for extension of time to file an amended motion for
compassionate release, [Doc. #14] is DENIED.
IT IS FURTHER ORDERED that no certificate of appealability shall issue.
IT IS FURTHER ORDERED that movant shall not file any additional post-dismissal
motions in this closed case, save a notice of appeal, or motions relating to his appeal.
Dated this 5th day of June, 2020.

6

AUDREY G. FLEISSIG
UNITED STATES DISTRICT JUDGE

3

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court
July 02, 2020

Mr. Robert Dinkins
U.S. PENITENTIARY
42737-044
P.O. Box 150160
Atlanta, GA 30315-0000
RE: 20-2339 Robert Dinkins v. United States
Dear Mr. Dinkins:
Enclosed is a copy of the dispositive order entered today in the referenced case.
Please review Federal Rules of Appellate Procedure and the Eighth Circuit Rules on postsubmission procedure to ensure that any contemplated filing is timely and in compliance with the
rules. Note particularly that petitions for rehearing must be received by the clerk's office within
the time set by FRAP 40 in cases where the United States or an officer or agency thereof is a
party (within 45 days of entry of judgment). Counsel-filed petitions must be filed electronically
in CM/ECF. Paper copies are not required. Pro se petitions for rehearing are not afforded a grace
period for mailing and are subject to being denied if not timely received.
Michael E. Gans
Clerk of Court
JPP
Enclosure(s)
cc:

Ms. Sayler Anne Ault Fleming
Mr. Gregory J. Linhares
Mr. Thomas Joseph Mehan
District Court/Agency Case Number(s): 4:20-cv-00133-AGF

Appellate Case: 20-2339

Page: 1

Date Filed: 07/02/2020 Entry ID: 4930167

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2339
Robert Dinkins
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Eastern District of Missouri - St. Louis
(4:20-cv-00133-AGF)
MANDATE
In accordance with the judgment of 07/02/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
August 24, 2020

sr’

Clerk, U.S. Court of Appeals, Eighth Circuit

